IN THE SUPREME COURT OF THE UNITED STATES

MARCH FOR LIFE EDUCATION & DEFENSE FUND
Petitioner
vs.

No:

19-1040

CALIFORNIA, ET AL.
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
March 18, 2020
cc:

See Attached List

KEVIN H. THERIOT
ALLIANCE DEFENDING FREEDOM
15100 N. 90TH STREET
SCOTTSDALE, AZ 85260
JOHN J. BURSCH
ALLIANCE DEFENDING FREEDOM
440 FIRST STREET NW
SUITE 600
WASHINGTON, DC 20001
BRIAN R. CHAVEZ-OCHOA
CHAVEZ-OCHOA LAW OFFICES, INC.
4 JEAN STREET
SUITE 4
VALLEY SPRINGS, CA 95252

